<html>
<title> - NO-COST IMPROVEMENTS TO CHILD SUPPORT ENFORCEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                 NO-COST IMPROVEMENTS TO CHILD SUPPORT
                              ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2012

                               __________

                          Serial No. 112-HR10

                               __________

         Printed for the use of the Committee on Ways and Means





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

78-664                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
GEOFF DAVIS, Kentucky                XAVIER BECERRA, California
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
CHARLES W. BOUSTANY, JR., Louisiana  MIKE THOMPSON, California
PETER J. ROSKAM, Illinois            JOHN B. LARSON, Connecticut
JIM GERLACH, Pennsylvania            EARL BLUMENAUER, Oregon
TOM PRICE, Georgia                   RON KIND, Wisconsin
VERN BUCHANAN, Florida               BILL PASCRELL, JR., New Jersey
ADRIAN SMITH, Nebraska               SHELLEY BERKLEY, Nevada
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    GEOFF DAVIS, Kentucky, Chairman

ERIK PAULSEN, Minnesota              LLOYD DOGGETT, Texas
RICK BERG, North Dakota              JIM MCDERMOTT, Washington
TOM REED, New York                   JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana











                            C O N T E N T S

                               __________
                                                                   Page

Advisory of March 20, 2012 announcing the hearing................     2

                               WITNESSES

S. Kay Farley, Executive Director, National Center for State 
  Courts.........................................................     6
Marilyn Stephen, Director, Office of Child Support, Michigan 
  Department of Human Services...................................    18
Craig Burlingame, Chief Information Officer, Trial Court 
  Information Services, Massachusetts Court System...............    23
Gordon Berlin, President, MDRC...................................    34

                       SUBMISSIONS FOR THE RECORD

Eastern Regional Interstate Child Support Association............    47

 
                     NO-COST IMPROVEMENTS TO CHILD
                          SUPPORT ENFORCEMENT

                              ----------                              


                        TUESDAY, MARCH 20, 2012

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 1100, Longworth House Office Building, the Honorable Geoff 
Davis [chairman of the subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

   Chairman Davis Announces Hearing on No-Cost Improvements to Child 
                          Support Enforcement

                                              Washington, Mar, 2012

    Congressman Geoff Davis (R-KY), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, announced today 
that the Subcommittee will hold a hearing on no-cost improvements to 
the child support enforcement (CSE) program. The hearing will take 
place on Tuesday, March 20, 2012 in 1100 Longworth House Office 
Building, beginning at 2:00 P.M.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include state child support enforcement officials and 
other experts. However, any individual or organization not scheduled 
for an oral appearance may submit a written statement for consideration 
by the Committee and for inclusion in the printed record of the 
hearing.
      

BACKGROUND:

      
    The CSE program was created in 1975 in order to reduce public 
expenditures on welfare by obtaining support from noncustodial parents 
on an ongoing basis and to help non-welfare families get support so 
they could stay off public assistance. Today, this State-administered 
program has grown to serve all families that request services and is 
estimated to handle 50 to 60 percent of all child support cases. States 
and Territories receive over $4 billion annually in Federal 
administrative funds, which covers approximately two-thirds of the 
total cost of operating the CSE program. In FY 2010, the CSE program 
collected $26.6 billion in child support payments and served nearly 
15.9 million child support cases. However, the program collects only 62 
percent of current child support obligations for which it has 
responsibility.
      
    In 2007, the United States was party to the Hague Convention on the 
International Recovery of Child Support and Other Forms of Family 
Maintenance. The Hague Convention aims to increase cooperation among 
nations for the international recovery of child support and other forms 
of family assistance. In order for the United States to fully ratify 
the Convention, Congress must approve and the President must sign 
implementing legislation that would amend Title IV-D of the Social 
Security Act and require States to update their child support laws by 
adopting amendments to the Uniform Interstate Family Support Act 
(UIFSA). This implementing legislation, which is designed to improve 
child support recovered in international cases, is expected to result 
in no additional State or Federal program costs.
      
    Beyond the Hague Convention, other no-cost improvements to the CSE 
program expected to be reviewed in the hearing include improving data 
and information exchange among state courts and human services 
organizations, as well as expanding researcher access to the National 
Directory of New Hires (a database under the authority of the CSE 
program) in order to improve the evaluation of employment programs.
      
    In announcing the hearing, Chairman Geoff Davis (R-KY) stated, 
``Ratification of the Hague Convention will mean that more children 
living in the United States will receive the financial support they 
deserve, even when one parent lives in another country. In addition, 
given the number of agencies involved in this issue, it is critical for 
technology to keep pace so families receive the support they need. This 
hearing will review several simple, no-cost ways of improving child 
support programs to achieve those goals, which I am hopeful Congress 
will pass in the near future.'' 
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the implementing legislation for the 
Hague Convention on the International Recovery of Child Support and 
Other Forms of Family Maintenance and related CSE improvements.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. Attach your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Tuesday, April 3, 2012. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman DAVIS. Thank you for joining us today. Today we 
are going to review several no-cost ways to improve the 
Nation's child support enforcement program so more children can 
benefit from child support. These changes should have broad 
bipartisan support and hopefully can proceed to the House floor 
in the coming weeks.
    The child support enforcement program was created in 1975 
in order to reduce public expenditures on welfare. By obtaining 
support from non-custodial parents on an ongoing basis and 
helping non-welfare families get support, more families could 
stay off public assistance.
    Today this State-administered program has grown to serve 
all families that request services, and is estimated to handle 
60 percent of all child support cases. It results in $26.6 
billion in child support collections involving 15.9 million 
unique cases.
    To carry out this work, States and Territories receive over 
$4 billion annually in Federal administrative funds, which 
covers approximately two-thirds of the total cost of the 
operating system. With the help of the experts who will testify 
today, we will review several no-cost ways to improve the child 
support enforcement program, increase child support 
collections, and better serve both families and taxpayers.
    One way to increase collections and ensure that more 
children living in the United States receive the financial 
support they deserve is through ratification of the Hague 
Convention on the International Recovery of Child Support and 
Other Forms of Family Maintenance. That is a mouthful, but it 
really boils down to stepped-up efforts to collect support when 
one parent lives outside of the United States.
    Before our subcommittee is the implementing legislation for 
the Hague Convention, which has bipartisan support, would have 
no cost for taxpayers, and is expected to increase collections 
in such cases. That will both help more children and reduce the 
need for taxpayer support in the form of welfare checks.
    Another way to increase collections is to increase the 
subcommittee's bipartisan efforts to standardize data and 
improve the exchange of data within and across programs. The 
child support system already heavily relies on data exchanges, 
but it is important for those efforts to be consistent with our 
data standardization progress involving child welfare, TANF, 
and unemployment programs so we can improve the overall 
efficiency of government programs.
    Continuing on the data exchange theme, we will also 
consider an Administration proposal to allow researchers access 
to data in the National Directory of New Hires, a database 
maintained by the child support enforcement program. This will 
help in evaluating whether employment programs are working as 
intended.
    This is a classic example of what we hope will happen as we 
increase the exchange of data; we can use the data we already 
have in smarter ways to help evaluate and improve government 
programs so they work better for intended recipients and 
taxpayers alike.
    We look forward to all of the testimony today. And we also 
look forward to working with our colleagues to improve how this 
program serves the children and families who depend on it, as 
well as ensuring it efficiently and effectively uses taxpayer 
dollars.
    Before we move on to our testimony, I want to remind our 
witnesses to limit their oral arguments to five minutes. 
However, without objection, all of the written testimony will 
be made part of the permanent record.
    On our panel this afternoon, we will be hearing from Kay 
Farley, Executive Director of the National Center for State 
Courts; and to introduce Marilyn Stephen, the director of the 
Office of Child Support in the Michigan Department of Human 
Services, I would like to recognize the chairman of the full 
committee, Mr. Camp, who shares a home state with Ms. Stephen.
    And now I would like to recognize our full committee 
ranking member--Mr. Levin is not here.
    I would like to recognize Chairman Camp to say a few words.
    Chairman CAMP. Alright. Well, thank you, Chairman Davis. 
And again, I would like to welcome Marilyn Stephen, director of 
the Michigan Office of Child Support, to the hearing today.
    Marilyn has served as director of the Office of Child 
Support since 2002 after having been an assistant prosecuting 
attorney in the child support division of the Office of the 
Prosecuting Attorney in Jackson, Michigan for several years. 
And as a proud resident of Michigan myself, I want to thank 
Marilyn for her many years of service to our great state.
    I would also like to take this opportunity to recognize the 
efforts of the Michigan Department of Human Services, which 
includes the Office of Child Support, under the leadership of 
Maura Corrigan and Brian Rooney. As a former State Supreme 
Court Justice and the current director of the Michigan 
Department of Human Services, Maura Corrigan has worked 
tirelessly to ensure the well-being of children in Michigan.
    I want to specifically highlight her work in child support 
enforcement, particularly to increase collections. Through her 
efforts, Maura has focused on the broad strategies of 
prevention, collaboration, and enforcement as a way to address 
the challenges and consequences of an underground economy.
    And finally, I would like to mention Brian Rooney, who is 
the brother of Florida Congressman Tom Rooney and deputy 
director of the Michigan Department of Human Services. I want 
to thank him both for his past service in the Iraq War and 
present service to our State as deputy director, where he is 
not afraid to ask the hard questions and make sure that kids 
are first.
    We are certainly lucky to have three such outstanding 
individuals working for the residents of the State of Michigan, 
and we are honored to have Ms. Stephen before the committee 
today to testify about improving child support enforcement 
programs and drawing on her extensive experience in Michigan.
    So thank you, Chairman Davis, and I yield back.
    Chairman DAVIS. Thank you, Mr. Chairman.
    Also, we have with us Craig Burlingame, the chief 
information officer with Trial Court Information Services in 
the Massachusetts Court System; and Gordon Berlin, president of 
MDRC.
    I would now like to recognize my good friend, Mr. Lewis 
from Georgia, representing Ranking Member Doggett today.
    Mr. LEWIS. Thank you very much, Chairman Davis. Thank you 
for calling this bipartisan hearing. As you know, unfortunately 
Ranking Member Doggett is not able to attend today's hearing 
because his flight into D.C. was canceled due to storms. I 
would like to applaud you both for coming together yet again to 
address pressing issues before the subcommittee.
    We all know that a parent's responsibility to his or her 
children does not end at our borders. That is why States seek 
an agreement with other countries to collect child support from 
non-custodial parents. Unfortunately, this State-by-State 
approach leaves out many States, and the different legal 
procedures and standards can be costly and create loopholes and 
confusion.
    A better approach would be for the United States as a whole 
to enter into a broader convention or treaty to ensure the 
international collection of child support. This way, we can 
move away from the piecemeal process and get everyone on the 
same page. I hope today's discussion will guide us in the right 
direction.
    Hopefully, we can craft bipartisan legislation that would 
ensure our child support system can fully comply with such a 
treaty. This will lead to more children getting the financial 
support they need and deserve.
    Mr. Chairman, Ranking Member Doggett and I look forward to 
continuing to work with you and other subcommittee members as 
we move forward with this important piece of legislation. Thank 
you very much again, Mr. Chairman.
    Chairman DAVIS. Thank you, Mr. Lewis.
    And with that, one vote has been called. We are going to 
temporarily recess the hearing for about 15 minutes, and then 
we will be back to pick up with the testimony of the witnesses 
and questions.
    [Recess.]
    Chairman DAVIS. We will go ahead and reconvene the hearing 
now. Thank you again for your flexibility and patience.
    We are going to go ahead and begin with witness testimony. 
Ms. Farley, you may proceed with your testimony. And again, I 
would just remind the witnesses that we would ask you to keep 
it to five minutes, and that will allow more time for 
questioning by the members afterwards.
    Proceed.

STATEMENT OF S. KAY FARLEY, EXECUTIVE DIRECTOR, NATIONAL CENTER 
                        FOR STATE COURTS

    Ms. FARLEY. Chairman Davis and Members of the Subcommittee, 
thank you for the opportunity to testify today regarding 
implementation of the Hague Convention on International 
Recovery of Child Support and Other Forms of Family 
Maintenance. I am speaking today on behalf of the National 
Child Support Enforcement Association, and NCSEA thanks you for 
holding this hearing.
    International child support enforcement is increasingly 
more common and important in our global society. By way of 
background, the U.S. has not joined the two prior child support 
treaties because of fundamental differences in how jurisdiction 
is obtained over parties in child support matters.
    Unlike the U.S., other countries do not require due process 
protection sufficient to meet the U.S. constitutional 
standards. The U.S. has dealt with international cases by 
negotiating bilateral agreements with individual countries. 
While these bilateral agreements have been beneficial, 
procedures and forms vary from country to country.
    The Hague Conference on Private International Law 
established a special commission in 2003 to develop a new child 
support treaty, which would modernize the existing system and 
encourage global adoption. This effort offered the opportunity 
to craft a new treaty to which the U.S. could participate.
    The objective of the Convention is to ensure effective 
international recovery of child support. The Convention creates 
four main measures to achieve that objective: establishing a 
comprehensive system of cooperation between the participating 
countries; making applications available for the establishment 
of parentage and child support matters; providing for 
recognition and enforcement of foreign support orders; and 
requiring effective measures for prompt enforcement of foreign 
support orders.
    The Convention should result in more children receiving the 
financial support they need from their parents, regardless of 
where their parents live. While the U.S. courts and child 
support agencies already recognize and enforce most foreign 
child support orders, other countries have not recognized and 
enforced our orders. They will have to do so once they and the 
U.S. ratify the Convention.
    The Convention's procedures are similar to those procedures 
already in place for processing interstate cases in the United 
States. Many of the provisions of the Convention are drawn from 
the U.S. experience with the Uniform Interstate Family Support 
Act, or UIFSA. The Convention will not affect the handling of 
our domestic child support cases; it will only apply to cases 
where the custodial parent and child live in one country, and 
the non-custodial parent lives in another.
    International child support cases will be processed under 
existing U.S. Federal and State law and practice. Compliance 
with the obligations under the Convention will require minimal 
changes to the U.S. law. My written testimony provides 
information on key provisions to the Convention. You will note 
that for all of these provisions, they are consistent with 
current policy and practice in the U.S.
    Let me briefly talk about how the Convention would be 
implemented in the U.S. The Uniform Law Commission developed 
and approved the 2008 UIFSA amendments to comply with the terms 
of the Convention. The intent is for Congress to require States 
to adopt these amendments verbatim or lose Federal funding.
    The 2008 amendments were limited only to those changes 
required to comply with the Convention. Existing Articles 1 
through 6 were modified to include foreign support orders, 
where procedures handling Convention cases would be the same as 
for handling domestic cases. The amendments do include a new 
Article 7, which will apply only to international cases and 
address those requirements unique to the Convention.
    Let me turn now to why the U.S. should implement the 
Convention. In a world where an increasing number of U.S. 
children have a parent living abroad, this Convention is needed 
so that all children will receive the child support that is so 
vital to their financial well-being.
    The Convention resolves the jurisdictional barriers that 
prevented the U.S. from joining the prior child support 
treaties. The Convention offers the U.S. the opportunity to 
join a multilateral treaty, saving the time and expense that 
would be otherwise required to negotiate individual bilateral 
agreements with countries.
    The Convention provides a structure and uniform procedures 
to increase the efficiency and effectiveness in processing 
international cases. And, lastly, the Convention provides for 
access to cost-free or low-cost services for legal assistance 
to U.S. custodial parents.
    NCSEA expressed its strong support for the Convention in a 
resolution which was adopted in August 2008. I also want to 
advise you that the Convention has widespread support from 
State organizations such as the Conference of Chief Justices, 
the Conference of State Court Administrators, the Uniform Law 
Commission, and the American Bar Association.
    Thank you for the opportunity to present this testimony and 
for your consideration of our recommendations. Thank you.
    [The prepared statement of Ms. Farley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you, Ms. Farley.
    Ms. Stephen, please proceed.

    STATEMENT OF MARILYN STEPHEN, DIRECTOR, OFFICE OF CHILD 
         SUPPORT, MICHIGAN DEPARTMENT OF HUMAN SERVICES

    Ms. STEPHEN. Thank you very much, Chairman Davis and 
Members of the Subcommittee, for this opportunity. As you know, 
I am the director of the Michigan Office of Child Support, but 
I am speaking to you today on behalf of the many child support 
professionals across the country who are members of National 
Child Support Enforcement Association.
    Michigan passed the first child support law in 1919 to 
permit local governments to assure support for the children in 
their communities. The drafters of that law would never have 
dreamt that in 2012, there would be 750,000 court-ordered child 
support cases in Michigan, and that one in three children would 
be spending a part of their childhood living with only one 
parent.
    Those same drafters would not have recognized a world where 
something oddly named a tweet can circle the globe in seconds, 
and American citizens can travel thousands of miles from home 
in just a few hours.
    In the last 60 years, it has become commonplace for parents 
and families to move from state to state. In many ways, the 
child support programs kept pace with these changes in society. 
First, Congress required States to enact the Uniform Reciprocal 
Enforcement of Support Act in the 1950s that set some ground 
rules for assuring financial support for children no matter 
where in the country the parent lived.
    As the migration of families across the country continued 
and child support programs in the State swelled, problems arose 
with the processing of interstate cases that finally 
precipitated a complete redesign in the 1990s, resulting in the 
Uniform Interstate Family Support Act. This law has been a 
great success in helping States to provide coordinated services 
consistently and efficiently to ensure that children receive 
the support that they need.
    Now we are on the verge of the next big step forward with 
the Hague Convention and implementing legislation that we are 
discussing today. To help you understand how important this 
step is to the States, I would like to tell you a little about 
the problems we face in trying to assure support for the 
children of Americans around the world.
    There are basic issues related to the translation of 
documents and currency exchange rates. But there are also 
fundamental differences in processes, jurisdictional 
understandings, the services provided in different countries, 
and even the basic definitions of who will be served.
    My front-line staff in Michigan report constant issues with 
trying to locate parents in other countries that owe child 
support; concerns about how notice to that parent, or what we 
in this country would call due process or even service of 
process, is accomplished; and the amount of time it takes to 
start support payments flowing to the parent who is raising the 
child.
    It is commonplace to hear that families have had to wait 
five years or more for a support obligation to be established, 
and this is with countries that we have agreed to work with 
through bilateral agreements. To me, the bilateral agreements 
are analogous to the old interstate laws of the 1950s. They are 
certainly better than nothing, but they do not establish any 
rules or mutual understandings about the work that needs to be 
done or the goals that should be accomplished.
    When our workers attempt to coordinate with officials in 
countries where we lack bilateral agreements, we generally 
receive no response whatsoever, or we are instructed to hire a 
lawyer in that country. Because most parents cannot afford to 
go down that path, the child support case ends up being closed 
until the support obligor leaves the safe haven of that 
country. The Hague Convention would fix this problem by 
requiring free services in most instances.
    In Michigan, we estimate that we have between 4- and 5,000 
cases where a parent lives in another country. That includes 
more than a thousand cases with Canada, with whom we share a 
700-mile border. International cases can be challenging and 
very time-consuming for workers because there are no agreed-
upon standard proofs, forms, or methods of communication. For 
this reason, I believe adoption of the Hague Convention and the 
enabling legislation would actually result in a cost savings to 
the States.
    Earlier I called this a big step. But all the States 
understand that we will not see instant benefits from these 
improvements. We also know with certainty that not moving down 
this road to international cooperation will likely mean that 
more American children will lack the basic support that every 
parent should provide, and that more obligors will seek out 
those safe havens. Simply put, children need the support of 
both parents no matter where in the world their lives take 
them.
    Thank you very much for your consideration of this 
important children's issue.
    [The prepared statement of Ms. Stephen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman DAVIS. Thank you very much, Ms. Stephen.
    Mr. Burlingame, you can give your testimony.

 STATEMENT OF CRAIG D. BURLINGAME, CHIEF INFORMATION OFFICER, 
  TRIAL COURT INFORMATION SERVICES, MASSACHUSETTS COURT SYSTEM

    Mr. BURLINGAME. Thank you, Chairman Davis, Members of the 
Subcommittee. Thank you for the opportunity to testify on the 
important issue of technology standards in child support 
enforcement. My name is Craig Burlingame, and I am the chief 
information officer for the Massachusetts Trial Court. I 
testify today with over 30 years of information technology 
experience in State and local government.
    In addition to my day job, I have the privilege of serving 
as the chairman of the Court Information Technology Officers 
Consortium, or CITOC. CITOC is a national organization of 
technology professionals in courts, with active members in over 
40 States. CITOC provides our members with a forum through 
which we can exchange information, ideas, and share our 
collective experiences.
    Throughout my career, I have had the chance to observe the 
benefits that can be realized from the implementation of 
technology standards like those I believe are contemplated by 
your legislation. Good standards establish a technological 
vocabulary that allow various parties with different 
perspectives to speak in the same language when discussing 
electronic information and data exchange.
    Further, the existence of quality standards provide a level 
playing field for the vendors that provide software and 
services to government entities that choose to use them. If a 
vendor is asked to implement a system in adherence to 
referenced standards, some of the uncertainty that exists in 
government procurements can be eliminated or at least reduced.
    As importantly, once a vendor has implemented a system in 
compliance with standards, the effort needed for subsequent 
implementations is reduced, preventing agency after agency from 
having to pay for customized systems, at least in those areas 
that are covered by the standards.
    One need look no further than public safety for 
longstanding examples of where standards have established a 
vocabulary to the benefit of taxpayers. Both with the FBI's 
NCIC system and the National Law Enforcement Telecommunications 
System, or NLETS, States and municipalities have been able to 
exchange information using standards for decades with these 
systems. In both of these cases, a vibrant and robust vendor 
community sells software and hardware solutions to criminal 
justice agencies nationwide that interoperate with NCIC and 
NLETS.
    When an agency purchases a system, they need only indicate 
to a prospective vendor the nature of the business they wish to 
transact and reference the applicable standards. In the case of 
the court community, the OASIS Electronic Court Filing standard 
has been evolving since it was first developed in 2001.
    In its most recent version, the ECF standard covers not 
only court filings but the electronic service of parties, and 
encompasses a variety of case types. This standard, which is 
now being used by courts and vendors in jurisdictions 
throughout the country, has been updated in its most recent 
version for compliance with NIEM, the National Information 
Exchange Model, which is contemplated by your legislation as 
well. When the Commonwealth recently issued an RFI for 
electronic filing, in our conversation with prospective vendors 
we were able to talk to them about how we expected the software 
to use ECF standards to transact business with our established 
case management system. Most vendors selling electronic filing 
products today understand exactly what that means and what is 
necessary for their software to use these standards.
    And, as importantly, many of the vendors in the e-filing 
space have already built the software needed to interface with 
existing systems using ECF standards. As a result of this, the 
cost to implement such interfaces is minimal compared to the 
cost of developing customized solutions from scratch.
    Although I am not testifying today on behalf of NIEM, I 
certainly am testifying in support of NIEM. The NIEM model is 
now being used in many aspects of government around the 
country, and not just within the justice community. As you may 
know, NIEM currently has 12 different domains, including 
children, youth, and family services.
    Because we in the courts deal with matters that come before 
us from a wide range of other governmental agencies and areas, 
we would hope that any standards developed in the child support 
enforcement area would be developed using the NIEM framework. I 
have included in my written testimony a few examples of where 
NIEM is being used successfully in the court community today, 
as well as information on what we are doing in Massachusetts.
    In conclusion, I believe the legislation that you are 
contemplating today is helpful and important, and I would 
encourage the committee to continue to advocate for the use of 
technology standards in the future. Such standards can reduce 
the cost of systems and increase the likelihood of 
interoperability among systems. The use of technology standards 
can indeed establish a common vocabulary for all to use in 
facilitating good and efficient government. Thank you.
    [The prepared statement of Mr. Burlingame follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Mr. Burlingame.
    Mr. Berlin.

         STATEMENT OF GORDON L. BERLIN, PRESIDENT, MDRC

    Mr. BERLIN. Chairman Davis and Members of the Subcommittee, 
thank you for the invitation to testify today. My remarks focus 
on the research uses of the National Directory of New Hires 
database.
    Every year, often at the direction of Congress, Federal 
agencies contract with independent research organizations to 
conduct evaluations of the effectiveness of government 
programs. In nearly every case, a key measure of effectiveness 
is the program's long-term effects on participants' employment 
and earnings.
    One of the most reliable sources of earnings and employment 
data is collected by States from employers as part of the 
administration of the unemployment insurance system. Currently, 
an evaluator acting as an agent of the Federal Government must 
obtain these data from each State agency. Because evaluations 
of governmental programs take place in multiple jurisdictions, 
the evaluator must spend considerable resources to ascertain 
the State's requirements for data acquisition and then apply 
separately to each State for the data.
    The significant costs of data acquisition efforts are 
passed on to the Federal agency and, ultimately, to taxpayers. 
It is an unnecessary expense.
    The same data that Federal contract evaluators must 
painstakingly acquire from each state already resides in a 
Federal database, the National Directory of New Hires, which 
Congress created to aid in the support of the administration of 
the Child Support Enforcement System.
    However, due to restrictions currently placed on access to 
this database, many federally supported researchers and 
evaluators are unable to access employment and earnings data 
from this database.
    Instead, they are forced to get the very same data directly 
from the states at great cost to the Federal Government, and at 
considerable burden in duplicative reporting for the states.
    If the New Hire's database were made available to 
evaluators with appropriate privacy safeguards, it would enable 
Congress and the agencies to assess the impact that social 
programs have on jobs and earnings at much lower cost and less 
burden to the Federal Government and the states.
    The proposed amendment to Part D of Title 4 of the Social 
Security Act would advance the objective of making this 
database available for a broader range of research purposes.
    But, there are three areas where the amendment could be 
strengthened. First, there may still be some ambiguity about 
whether a Federal agency can provide individual level data with 
personal identifiers to a contract or grant funded evaluator, 
and thus, the procedures put in place could result in Federal 
agents creating data sharing systems that are more complex and 
more costly than necessary.
    However, I want to hasten to add that these systems would 
still be superior to the current situation which has 
contractors going to individual states to recreate over and 
over again a dataset that already exists at the Federal level.
    My suggestion is that the bill clearly authorize the 
release of personally identifiable employment and earnings data 
directly to entities conducting Federal program evaluations, 
providing that all of the necessary procedures are in place to 
protect an individual's privacy and the confidentiality of the 
data.
    Second, the proposed amendment appears to require that a 
separate agreement be concluded between OCSE and the Federal 
agency requesting the data for each and every study.
    Here, the amendment might allow for more inclusive blanket 
data agreements between agencies, avoiding the need to 
negotiate separate interagency agreements for every study.
    Third, the bill should be careful to enumerate all the 
relevant Federal agencies. For example, the Department of 
Defense and the Corporation for National Service, both of which 
fund research and evaluation studies, are missing from the 
current draft.
    Lastly, I want to briefly mention three potential concerns 
regarding the amendment.
    First, protecting the data's confidentiality. I want to 
stress that research contractors acting as the Federal 
Government's agent obtain the same earnings and employment 
information now from states. In doing so, they assume 
responsibility for protecting the privacy of the data, and the 
confidentiality of the individuals involved, using secure 
servers, encryption, and other best practices as required by 
each individual state, and the standards of each state vary 
greatly.
    The proposed amendment would standardize and thus 
strengthen those requirements and protections, and it would add 
felony level penalties for a willful breach of privacy laws. 
You would essentially be strengthening the privacy protections.
    Cost is another major issue. Federal contracts and grants 
include funding to obtain the data from states now. These same 
contracts should instead include funding to cover the marginal 
cost of obtaining the data from the federal agency that 
administers the NDNH database.
    Those costs would certainly be less expensive than the 
costs currently incurred.
    Finally, it is not precedent setting. The Federal 
Government provides a range of confidential sensitive data to 
research contractors and grantees acting as Federal agents now.
    In conclusion, this relatively simple fix to existing law 
governing the New Hire's database, giving researchers 
evaluating Federal programs access to personally identifiable 
employment and earnings' information would eliminate 
unnecessary duplicative data collection efforts, and reduce 
reporting burdens on state governments.
    It would also save Federal and state taxpayers money, and 
improve the quality and the efficiency of federally supported 
evaluation research, all while strengthening the protections 
governing the confidentiality of the data, and further 
protecting the privacy of individuals.
    Thank you very much.
    [The prepared information of Mr. Berlin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Mr. Berlin. We are 
going to move to questions now.
    I have a more general question for all of the witnesses. 
Each of you has had an opportunity to review a draft of the 
proposed legislation, of the proposals we have been discussing 
so far today, and many of you have alluded to it in your 
testimony.
    I was wondering if you have any additional comments about 
the draft legislation, specifically anything that you believe 
should be changed or improved upon as we move forward.
    I would open it up for any of the witnesses to share.
    Mr. Burlingame.
    Mr. BURLINGAME. Mr. Chairman, the one thing I would point 
out, in talking to some of my colleagues in states around the 
country, I was surprised to learn that in many instances today, 
judges and individuals supervising criminal defendants, 
probation officers, parole officers, do not have access today 
to child support order information or arrearage information on 
the population of people they supervise.
    The privacy considerations in the current regulations and 
law prevent those individuals from having access to information 
about support orders and an individual's compliance.
    It seems to me that might be something that could be added 
that would allow individuals supervising the criminal 
population in the country to be able to check and make sure 
their charges are staying compliant with the important issue of 
child support enforcement.
    Chairman DAVIS. Before we move on, in fact, I will share 
personally that is one of our goals. Mr. Lewis and I among a 
few others introduced legislation called the ``Standard Data 
Act,'' and we got that enacted into law, in the Child Welfare, 
Promoting Safe and Healthy Families Act re-authorization last 
year. It was also in the Conference Report on payroll tax 
affecting unemployment and TANF.
    In my mind, particularly from a front line provision 
standpoint, having access to that information is very 
important. A lot of the populations that we deal with, where a 
front line social worker or a caregiver at a non-government 
organization could encounter someone, it would be nice to know 
if there was a deadbeat dad across the river in another 
jurisdiction, to be able to find that.
    I have heard exactly the same sentiment almost universally 
from folks: the more integrated we can be.
    I do not believe that would be a breach of privacy since 
that parole officer can see a lot of other things. It might be 
less comfortable in public discussion than the child support 
payment issue.
    Ms. Stephen.
    Ms. STEPHEN. Yes. I would like to add to that thought. When 
I heard this concept earlier today from Mr. Burlingame, I was 
intrigued because we are in the midst of discussions with our 
courts in Michigan, and specifically with the establishment of 
a judicial data warehouse, and are interested in access to 
certain information that is not part of the public record.
    Our child support program is a court based system, but 
arrearage amounts do not go in the public record.
    That type of information, making that available to judges 
when they are sentencing, so the judge actually has a full 
picture of this individual's life and responsibilities, 
probably would be very useful.
    It is unlikely to be possible under today's rules and 
regulations.
    I appreciate the fact this is being given consideration.
    Chairman DAVIS. Hopefully, we will be able to do something 
along those lines that would ease the process where it could 
simply be garnishment of pay. It may take a while to get to 
that point.
    It took us seven years to get to the first provision that 
Mr. Lewis and I saw go into law, and Mr. Doggett and our other 
colleagues.
    Did you want to say something, Mr. Berlin?
    Mr. BERLIN. I just would restate what I said earlier: 
getting researchers access to individual level data with 
personal identifiers and with the appropriate protections; and 
secondly, encouraging blanket agreements between agencies so we 
do not spend all this time negotiating over the same issue 
every single time there is another study funded.
    Chairman DAVIS. Just to share a personal viewpoint, we 
often get into these discussions in the Congress when in fact 
many of our colleagues who argue about this issue go out and 
use their credit card or one of those loyalty fobs at a store, 
where there are reams and reams of data being used to forecast 
management to collection activities, and all the privacy is 
encrypted and quite reliable.
    I think we could easily achieve a high standard because we 
are dealing with so much smaller of a population and much more 
limited data fields in the long run.
    Just another general question. What would we lose, and more 
specifically, families in need of child support lose if we do 
not introduce and pass legislation dealing with this issue?
    Why do you feel it should be done now?
    Ms. Farley.
    Ms. FARLEY. We currently work in a patchwork situation 
working with individual bilateral treaties. Requirements vary 
from country to country.
    I think what families will lose and continue to lose is the 
support. Either they will not get the support at all, as Ms. 
Stephen mentioned, or there is going to be a delay in receiving 
the support.
    We do have the uniform law Commission's recommendation for 
the 2008 amendments. A lot of uniform laws are presented to the 
states, and what sometimes happens when states are considering 
that uniform language is that states will put their own 
personal touches on it, so it does not end up being uniform in 
the long run.
    I think it is important for Congress to require that every 
state adopt the uniform law verbatim.
    That way, we will be able to comply with the terms of the 
Convention.
    I would also say the need for Congress to act now is that 
other countries, including the European community, are 
considering and moving toward ratification, and some of those 
countries are countries where we do not currently have access 
to their systems.
    By ratifying the Convention, becoming a party to the 
Convention, our citizens would have access to services in 
countries where they currently do not have access.
    Chairman DAVIS. Thank you very much. With that, I would 
like to recognize Mr. Lewis from Georgia for five minutes.
    Mr. LEWIS. Thank you very much, Mr. Chairman. I want to 
join you in thanking the witnesses for taking their time to be 
here today in support of this legislation.
    I just want to ask a question, and anyone can respond. I 
have a letter from a mother from Georgia who wrote to the 
Federal Office of Child Support Enforcement that said ``I 
recently went through a divorce, and soon after, my ex-husband 
fled the country to avoid child support payments.''
    She went on to say ``I heard he is in Argentina. I 
currently live in Georgia with my two children. Is there 
anything I can do?''
    I want to ask you, how would the United States' 
participation in the Hague Treaty help this mother and the 
other parents like her, to assist with enforcing an order to 
non-custodian parents who flee the country to avoid his or her 
child support?
    Would you care to respond?
    Ms. STEPHEN. I think you have described exactly the kinds 
of situations that we face with unfortunately some frequency in 
Michigan.
    At this point in time, we can contact the authorities in 
Argentina. We can try to make some inroads, but establishing 
child support is a multi-step process.
    First, you have to know where that parent is. Then you have 
to give adequate notice to the parent, establish the 
obligation, and set up a process to collect it.
    All of that takes structure that we do not have access to 
today, even if it is a bilateral agreement country, and I am 
not sure. I do not have that right in my notes.
    The Hague Convention and the enabling legislation would 
actually put in place some standardization of processes that 
would allow us to accomplish all of those steps, if both 
Argentina and the United States were members of the Treaty 
Convention.
    That is really exactly what we are talking about. That is 
the kind of problem we need to solve for families.
    Mr. LEWIS. Anyone else care to respond?
    [No response.]
    Mr. LEWIS. In your opinion, how important is it that 
Congress quickly pass this piece of legislation?
    Ms. STEPHEN. I have been in this program for most of my 
career, and I think this is a very significant step forward for 
families whose cases have been closed, flat out closed, nobody 
is trying to do anything any more because we have run into a 
dead end, because they have an international component.
    Those children deserve the support services that we could 
provide if we can start this ball rolling.
    The phrase that comes to mind is ``If we build it, they 
will come.'' I am convinced there are many cases out there that 
are outside the system now because we have been unable to be 
helpful, and we will be able to move some of those ahead.
    I have a case with a seven year old. The father lives in 
Australia. We have been unable to get any locate, and that 
child has gone without child support for seven years.
    Those are the kind of cases that we need to be moving, and 
we have to start somewhere, and this is really the place to 
start.
    Thank you.
    Mr. LEWIS. Thank you. Yes, sir?
    Mr. BURLINGAME. Mr. Lewis, the only thing I would add is on 
the data standards' front, systems continue to be built and 
purchased, both in the 4-D area and in the court area.
    They are not waiting for these standards to be adopted or 
developed, so every system that gets built or purchased without 
standards as a guidance, has the potential to have to be 
retrofitted or rebuilt or refitted at some point in the future, 
once these standards are established.
    The sooner there could be a mandate for the establishment 
of standards in this area along with any other area in the 
child welfare area, I think the better.
    Mr. LEWIS. Ms. Farley.
    Ms. FARLEY. I might also add that in moving toward 
ratification, Congress approving and the implementing of 
legislation is a step in that process.
    Once you have passed the legislation, states will have two 
years in which to implement or to pass legislation.
    Once you act, we are still at least two years away from 
ratification. The sooner you act, the sooner we can move 
towards ratification and actually begin to benefit from the 
Convention.
    Mr. LEWIS. Thank you. Mr. Chairman, I yield back.
    Chairman DAVIS. I thank the gentleman. The Chair now 
recognizes the gentleman from Minnesota, Mr. Paulsen, for five 
minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman, and thank you all for 
being here today.
    In today's world, when we talk about moving information 
between systems and making it more available out there, we have 
the issue of identity theft, of course, and the protection of 
personal identity information, which is sometimes called 
``PII.''
    That is a primary concern whenever anyone talks about 
expanding access to data.
    I am just wondering, Mr. Berlin, you touched on this a 
little bit right at the end of your testimony, I think. Can you 
please walk us through exactly how the privacy protections 
provided by the draft legislation language would work if 
researchers were given access to data in the National Directory 
of New Hire's?
    What other types of Federal data do researchers already 
have access to, what privacy protections surround that data? 
Have they been effective? How do those protections compare to 
those, as an example?
    Is there any reason to believe overall that these private 
protections would be any less effective than those that are in 
place right now involving other areas of Federal law?
    Mr. BERLIN. I can describe briefly the steps that we take. 
We work with a lot of other firms that also do this kind of 
work and have typically found that they follow very similar 
procedures.
    We have a chief data security officer and a data exchange 
manager. We begin by meeting with and working with the agency 
and identifying the most reliable, safest way to actually 
transfer the data.
    That data transmission method usually follows the National 
Institute for Standards and Technology's strict standards for 
data exchange. It is called ``For Data in Transit.''
    It is a standard protocol, and NIST has established a set 
of very strict rules around these transfers. I think you want 
to make sure that those kinds of rules are what the agencies 
are relying on and using.
    Those data teams then work with and store that personally 
identifiable data on a secure, centrally located server. It can 
only be accessed by a limited number of people, with the need 
to know.
    Once we have the data, the very first thing it does is 
strip the data of all personal identifiers, and create 
essentially a random number for every individual in the 
dataset.
    That is the dataset we work with. The dataset that has 
personally identifiable information on it is set aside on this 
secure server that is controlled by a data security officer.
    There is almost no reason for us to be using the dataset 
with personal identifiers on a regular basis.
    At the end of the study, we then use the National Institute 
for Standards and Technology's standards for ensuring that the 
data is destroyed in an effective way, and that it cannot be 
recaptured elsewhere.
    As I said, most firms use those same kinds of procedures. 
At our organization, and to the extent I know of other 
organizations, there has never been a breach of any of that 
data.
    We and some other organizations we work with actually get 
sensitive Social Security Administration data, which if you 
think about it comparatively, in the NDNH case, we are only 
talking here about knowing quarterly earnings, essentially.
    The Social Security data on disability and other things are 
much more sensitive, and we do get that data now, and we meet a 
very high standard for that data.
    Federal agencies generally have compliance officers who 
visit your organization unannounced and confirm that you are in 
fact following all these procedures.
    Mr. PAULSEN. The data you would use as a researcher under 
the draft legislation would be just as protective of privacy 
concerns as it is for what other Federal agencies use right 
now?
    Mr. BERLIN. Exactly. The truth is the thing that everyone 
seems to have forgotten here is we already have this data. We 
are just getting it from the states. We follow these procedures 
now.
    For 30 years, we have been doing this. Again, at 
unnecessary cost because the same data is already sitting at 
the Federal level.
    Mr. PAULSEN. Ms. Farley, can I just follow up and ask, I 
think you may have mentioned privacy protections within the 
Hague Convention, but can you please tell us a little bit more 
about those?
    Ms. FARLEY. Yes. The drafters of the Convention were very 
aware of the personal information that would be gathered and 
transmitted.
    There are several provisions within the Convention that 
deal with this issue. One, protection of personal data, any 
personal data that is gathered and transmitted can only be 
used--it is restricted to be used only for the purpose for 
which it is being gathered and transmitted.
    Someone getting information for collection of child support 
could not hand that off to some other entity to use it for 
another purpose.
    There is also a provision related to confidentiality, in 
that the participating countries must protect the information 
they gather in accordance with their national law.
    The third one has to do with non-disclosure. It is a 
sensitivity to domestic violence. Authorities are prohibited 
from disclosing or confirming information that would jeopardize 
the health, safety, and liberty of the persons.
    The other thing I would mention is as the Treaty was 
developed, tools were also developed to help implement it, 
including a set of forms, recommended forms, and all of the 
recommended forms clearly identify what information is personal 
and should not be transmitted, and that these countries should 
be very careful in handling.
    Chairman DAVIS. Thank you very much. The gentleman's time 
has expired. The Chair now recognizes the gentleman from North 
Dakota, Mr. Berg, for five minutes.
    Mr. BERG. Thank you, Mr. Chairman.
    I just have a couple of questions. First of all, North 
Dakota is one of the ten states that have enacted legislation 
with the Hague Convention.
    I really have two questions. One is what are the 
consequences of us not moving forward at this point?
    Ms. Farley, if you could address that, and Ms. Stephen 
also. If we do nothing, what are the negative consequences for 
doing nothing right now?
    Ms. FARLEY. The consequences are we continue the path that 
we have, in this patchwork of a system where we have to do 
bilateral agreements with individual countries, the 
requirements of those agreements may vary as far as what kind 
of documents are required and services that can be performed, 
and for those countries where we do not have a bilateral 
agreement, we will continue to have difficulties.
    It is just a continuation of the difficulties we are 
experiencing right now.
    Mr. BERG. Ms. Stephen.
    Ms. STEPHEN. Yes, I would certainly second what Kay Farley 
has said. As I said earlier, the many cases that have just been 
out and out closed because we lack the ability to process the 
child support for that family.
    Those cases are all across the globe. Our nearest neighbor 
probably would be cases from Mexico, where we have a number of 
Mexican individuals who work and live in Michigan, and we are 
unable to accomplish anything in terms of child support with 
the country of Mexico.
    Those families will grow up--those children will grow up 
with the support of only one parent, and that is a tremendous 
struggle in a time when both parents should be supporting their 
kids.
    Mr. BERG. Michigan is a problem? I am just kidding.
    My second question, last question, relates to there are 40 
states who have not signed this or enacted this. What is the 
problem? What is the barrier for them acting on this?
    Ms. FARLEY. I think the barrier is they are waiting for 
Congress to act. They want to take clues from you as to whether 
you are going to require verbatim implementation.
    I think they are waiting for you. It is not that they are 
not supportive. They just want to take direction from you all 
before they move forward with their state legislation.
    Mr. BERG. Okay.
    Ms. STEPHEN. I am not aware of any opposition to this. I am 
not aware of any concern among the child support directors 
across the country, and we are a fairly tight group.
    I do not believe that anybody is waiting because they do 
not believe this is the right thing to do. I think they are 
waiting to know that this is the direction that Congress wants 
us to go.
    Mr. BERG. We are all going to move in this direction. Thank 
you. I yield back, Mr. Chairman.
    Chairman DAVIS. Thank you very much. I want to thank each 
of the witnesses who have come here today. I also thank you 
again for your flexibility at the beginning of the hearing 
where we had to take that brief intermission.
    We would like your continued input as we move forward on 
the draft legislation to introduce and hopefully pass that in 
this Congress. I would value that very much.
    If members have additional questions, they will submit them 
to you directly in writing, and what we would ask you to do is 
share those answers not only with the members but also with the 
Committee so we can get them in the record for all to see.
    With that, I thank you again for coming, I thank the 
members for participating, and the Committee stands adjourned.
    [Whereupon, at 3:02 p.m., the Subcommittee was adjourned.]
    [Submissions For The Record follow:]

    Eastern Regional Interstate Child Support Association, statement


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
